February 1, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews –Raleigh, NC
         (Report Number FF-MA-11-017)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Business Mail
Entry Unit (BMEU), Raleigh, NC (Project Number 11BR004FF012), performed
December 20-21, 2010. The Raleigh BMEU is in the Greensboro District of the Capital
Metro Area. At the conclusion of FY 2011, we will summarize the results for all reviews
in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC properly conducted
and documented their examination of SOX financial reporting controls.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance – Business                                   FF-MA-11-017
 Mail Entry Unit Oversight Reviews – Raleigh, NC


To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
February 2011 in accordance with the Quality Standards for Inspections.1

Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management agreed not to respond to the interim reports but will
have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Johnson K. John manager, at
703-248-4695, or me at 724-584-5630.


      E-Signed by Kevin Ellenberger
    VERIFY authenticity with ApproveIt
       Tuesday, 01 February, 2011



Kevin H. Ellenberger
Director, Field Financial – East

Attachments

cc: Douglas G. Germer
    Corporate Audit and Response Management




1
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                                   FF-MA-11-017
 Raleigh Business Mail Entry Unit – Raleigh, NC



                                                 APPENDIX A: REVIEW RESULTS

                  Site Name                                               Raleigh BMEU
                  Finance Number-Unit ID                                  3663520196
                  Location Type                                           BMEU
                  Scope Period Under Review                               October 1 through December 17, 2010
                  FTC Review Program Version and Date                     11/24/10
                  FTC Team                                                East




                                                                                                       Did FTC          Did the OIG
                                                                         Did the OIG     Did FTC      adequately         agree with
                                                            Did FTC         have       perform the   document its           FTC’s
                                                              have       exceptions/      step in        work           exceptions/
                                                          exceptions/     findings     accordance     performed       findings (or no
                                                          findings in     that FTC         to its       and the         exceptions/
 FTC Review Step                FTC Review Step            this step?     did not?      program?       results?          findings)?
 #/Control #                      Description               (Yes/No)      (Yes/No)       (Yes/No)      (Yes/No)           (Yes/No)
 450001/104CA63            Mail Check in/Receipt              No             No           Yes           Yes                Yes
 450002/104CA2             Mail Verification                  No             No           Yes           Yes                Yes
 450003/104CA65            Placarding/Induction               No             No           Yes           Yes                Yes
                           End-of-Day
 450004/104CA66                                               No             No           Yes            Yes               Yes
                           Reconciliation
 450005/104CA06            SOX Certification                  No             No           Yes           Yes                Yes
                           Finalized Postage
 450006/104CA1                                                No             No           Yes            Yes               Yes
                           Statements




                                                                      3
                                                           Restricted Information
